HSBC Advance Mastercard® Cardmember Agreement

06/2020

HSBC CARDMEMBER AGREEMENT
PART 1 OF 2: TERMS AND CONDITIONS
1. ABOUT THIS AGREEMENT
Part 1 Terms and Conditions
Part 2 Account Opening Table
Part 1 and 2 together make your Agreement and govern your Credit Card Account with us (your “Account”).
This Agreement includes an Arbitration provision. If you are a Servicemember or dependent covered by the protections of the
Military Lending Act, the Arbitration provision does not apply to you.

2. KEY TERMS
“You” and “your” means each person who:
•applied for this Account, and/or
•agrees to pay for the Account.
“We,” “us,” and “our” means HSBC Bank USA, N.A.
“Agreement” means Parts 1 and 2 of this document and any supplements or amendments.
“Card” means any card, card number or other device we issue to access your Account.
“APR” means Annual Percentage Rate.
“Network” means Visa International, Mastercard International Incorporated or other governing credit card network, as applicable.

3. USING YOUR ACCOUNT
Your card must be signed before using. When you receive this Agreement, use the Account, or sign or keep the Card, you agree
to:
•the terms of this Agreement; plus
•any amendments or supplements to the Agreement.
TYPES OF USE
You may use your Account for:
•Purchases;
•Balance Transfers;
•Check Transactions;
•Cash Advances.
We may limit the amount and/or frequency of any type of use at any time.
Cash Advance transactions are considered:
•ATM withdrawals
•Overdraft transactions
•Checks used for purposes other than Balance Transfers
•Over the counter (at bank)
•Other “cash like” transactions, such as purchasing money orders, gaming transactions, or purchasing lottery tickets.
ALLOWED USE
You agree to:
•use your Account only for lawful purposes
•use your Account for only personal, family, household, or charitable purposes; and
INTERNAL

•repay us for all costs related to uses not allowed under this Agreement.
You are not allowed to use your Account:
•To make payments to this credit card or any other loan payments to us or our affiliates; for unlawful internet gambling.
If you have given permission to use this card to someone, these transactions are not considered unauthorized and you will
be liable for these purchases.
USING THE ACCOUNT
At times we may:
•decline a transaction if there is not enough available credit and for any other reason; and/or
•require our Authorization before allowing a transaction.
Any merchant may request to check your ID.
We are not liable if:
•a merchant refuses your card; and/or
•we do not complete your transaction for any reason.

4. CREDIT LIMIT
When we first send your Card, we will tell you:
•the total credit limit on your Account.
•the total cash advance limit on your Account.
We may change these limits from time to time, including:
•Reduce your credit limit and/or
•Suspend your access to available credit
Whenever this occurs, we will notify you:
•on your billing statement; and/or
•by sending a notice.
You agree to:
•Keep your Account balance (which includes interest and other charges) within your credit limit; and
•Pay any over limit amount that might occur.
Your available credit may not reflect your payments for up to 14 days. If a transaction exceeds your available credit, we may
decline it.

5. INTEREST RATES
ABOUT YOUR APRs
Your APRs are shown in Part 2.
A Daily Periodic Rate is used to determine your Interest Charges in any billing cycle. To determine this rate, we divide your
APR by 365; then round this number up to the next hundred thousandth of a percentage point.
PROMOTIONAL OR INTRODUCTORY APR
We may offer you special Promotional or Introductory APRs from time to time. If we do, we will tell you:
•The eligible transaction types;
•how long this APR will last; and
•any other special terms of the offer.
HOW A VARIABLE RATE MAY CHANGE
Your variable APRs can change with each monthly billing cycle.
We will apply each APR to the applicable balance for each type of Transaction. Each variable APR will be equal to:

INTERNAL

a) the amount shown in Part 2 (“Spread”); plus
b) the U.S. “Prime Rate” as defined below.
The Prime Rate will be as shown in the Money Rates table of The Wall Street Journal that is in effect on the last day of the
month.
Any changes in the Prime Rate will take effect on the first day of your billing cycle beginning in the next month.
An increase in the U.S. Prime Rate will increase your Daily Periodic Rate (“DPR”). It may also increase your:
•Interest Due; and/or
•Minimum Payment Due.
ABOUT THE PENALTY APR
HSBC Premier World Elite Mastercard®, HSBC Premier World
Mastercard®, HSBC Advance Mastercard®, HSBC Cash
Rewards Mastercard®, HSBC Platinum Mastercard®, HSBC
Platinum with Rewards Mastercard®, HSBC Cash Rewards
Mastercard® Student Account.

Penalty APR will apply to
both new and existing transactions. We review
your Account every 6 months after the Penalty APR is applied.
The Penalty APR will continue to apply until after you have
made timely payments during the 6 months being reviewed.

HSBC Gold Mastercard®

Penalty APR does not apply

6. INTEREST CHARGES
HOW INTEREST CHARGES ARE CALCULATED
To determine your periodic Interest Charges on each billing statement, we:
• Determine the Average Daily Balance for each type of transaction; (for example, purchases, balance transfers, and
cash advances); then
• Multiply this number by the applicable DPR: then
• Multiply this number by the total number of days in the billing cycle.
We use the applicable DPR in effect on the billing statement closing date.
HOW DAILY BALANCE IS DETERMINED
To determine your Daily Balance, we:
• Take the beginning balance for each type of transaction that day; then
• Add the following that were incurred on that day:
a) Any new transactions;
b) Any previous day’s periodic Interest Charges;
c) Any Finance Charges; and
d) Any fees and charges, then
• Subtract any payments and/or credits.
We also make any needed adjustments. For example:
• If a transaction posts after, but occurs before the start of a billing cycle, we may adjust the amount above to include
this transaction. It will be included as of the first day of the billing cycle in which it posts.
• If your Account is subject to a grace period during the billing cycle, your payments will be subtracted from all Daily
Balances in the current billing cycle.
• If a transaction for a returned payment or a dispute resolved in our favor posts after the beginning of the billing cycle,
we will make this adjustment:
The applicable Daily Balance(s) and any related Interest Charge calculations will be adjusted to include the transaction

INTERNAL

amount as of the date of the original payment or transaction.
To calculate your Average Daily Balance, we:
• Add the Daily Balances for each day of the billing cycle; then
• Divide this total by the number of days in the billing cycle.
PAYING INTEREST
Your due date is at least 25 days after the close of each billing cycle. Your Account has a grace period on purchases. We
will not charge you interest on new purchases if you pay your previous non-promotional balance including fees and Interest
Charges, by the due date each month. We will begin charging interest on cash advances and balance transfers on the
transaction date, unless, under the terms of the promotional offer, no interest will accrue during the promotional offer
period, provided your account remains in good standing. However, no Interest will be charged on new purchase for any
billing cycle when:
• You paid your entire non-promotional balance plus any fees and finance charges in the previous month on time; and
• You pay your entire current month’s non-promotional balance plus any fees and finance charges on time as well.

7. PAYMENTS
PROMISE TO PAY
You promise to pay for all:
•credit we extend; plus
•Interest Charges and other fees or charges; plus
•collection costs and attorney fees as allowed by law.
If your Account is a joint Account, each of you is jointly and individually responsible for amounts due. This remains true in
the event of death, divorce or other events that affect liability between you and the other person.
If any joint Account holder requests to not be liable for future transactions, we may close the Account.
HOW WE APPLY PAYMENTS
•When you make a payment, we apply the Minimum Payment Due to the balance on your monthly statement with the
highest APR first.
•Payment amounts in excess of your Minimum Payment Due will be applied to balances with higher APRs before
balances with lower APRs.
•We apply payments to balances appearing on your monthly billing statement before being applied to new
transactions. An example of a new transaction is a recent purchase or cash advance that has not yet been included in
the New Balance as shown on your statement.
If you do not pay your non-promotional balance in full each month, you may not be able to avoid interest charges on new
purchases.
MINIMUM PAYMENT DUE
Your Minimum Payment Due each billing cycle will be as follows:
1. If your New Balance is $25 or less, your Minimum Payment Due is equal to your New Balance.
2. If your New Balance is more than $25, your Minimum Payment Due is equal to any amount past due, plus the greater
of:
a) $25
b) 1% of your New Balance; plus
--Billed Late Payment Fees plus
--Billed Interest Charges
Unless your Minimum Payment Due is equal to your new Account balance, it will be rounded up to the nearest dollar.

INTERNAL

WHEN AND HOW TO PAY
You agree to:
•Pay at least the Minimum Payment Due as shown on your billing statement, and described in this Agreement.
•Make this payment in time to be credited by no later than the Payment Due Date.
If you wish, you may pay more than the Minimum Payment Due or the entire balance at any time.
Payments must be:
•made in U.S. dollars; and
•paid from a U.S. financial institution, and sent in a form that is acceptable to us.
Acceptable forms of payment include:
•a check or money order; or
•an electronic funds transfer.
If you want to write any special conditions on your payment, such as “paid in full”, “without recourse”, or similar language,
you must mark this clearly on your payment. Send this payment to the address noted on your statement as the “Billing
Inquiry” address.
Unless you follow the above directions, we may accept apayment marked with special conditions and not agree to those
conditions, and will not lose any of our rights.
By sending us a check for payment on your Account, you authorize us either to:
•use information from your check to initiate an electronic fund transfer from your payment account according to the
terms of the check; or
•to process this transaction as a check.
When we use your check to make an electronic funds transfer:
•funds may be withdrawn from your payment account the same day we receive your payment: and
•you will not receive your check back from your bank.
When you use our optional payment by phone service, you agree that:
•we may make an electronic funds transfer from the bank account you choose; or
•we may process the payment the same way we would process a check.
You authorize the amount and timing of each payment. Please retain this authorization for your records.
If your payment is returned:
•the amount you paid will be reversed back to your Account and may be applied to a different category than originally
posted; and
•Interest Charges may be restored back to the payment date at the APR for that transaction.

8. FEES
TREATMENT OF FEES
Fees are listed on the Account Opening Table in Part 2 of the Cardmember Agreement.
Any fees will be added to your purchase balance unless otherwise stated in this Agreement.
MINIMUM INTEREST CHARGE
If you are charged Interest, the charge will be no less than the Minimum Interest Charge listed in Part 2. The Minimum
Interest Charge will be Allocated to each balance category subject to an Interest Charge.
BALANCE TRANSFER FEE
Applies to balance transfer and check transactions; and is assessed as of the date the balance transfer or check transaction
posts to your Account. This fee is a finance charge. We will add it to the same balance as the balance transfer or check.
CHECK FEE
Applies to checks written for other purposes than Balance Transfers. We assess this fee as of the date the check posts to
INTERNAL

your Account. This fee is added to the same balance as the check transaction, and is considered a Finance Charge.
CASH ADVANCE FEE
Applies to cash advance transactions; and is assessed as of the date the cash advance transaction posts to your Account.
This fee is a Finance Charge. We will add it to the same balance as the cash advance.
OVERDRAFT TRANSACTION FEE
Overdraft transfers to your eligible HSBC deposit account from your credit card account will be a Cash Advance transaction
under your Cardmember Agreement. Transfers will be subject to the terms of both your Cardmember Agreement and the
Terms & Charges Disclosures governing your HSBC deposit account. In the event that your deposit account has insufficient
funds, we will automatically transfer funds rounded to the next full dollar amount. Your HSBC Credit Card Account will
cover any overdraft on your deposit account, as long as the credit available on your HSBC Credit Card Account is sufficient
and you are not in default under your Cardmember Agreement.
The overdraft fee is computed based on the amount of each overdraft transaction. This fee is a Finance Charge. We will
add it to the same balance as the overdraft.
ANNUAL FEE
If your Account has an annual fee, you agree this fee is charged to your Account every year your Account is open. We will
post a reminder message on your billing statement a month prior to the Annual Fee being assessed.
How you can avoid paying an Annual Fee
•Maintain relationship requirements as outlined in Part 2 of the Cardmember Agreement.
•You may be able to product transfer your credit card to another HSBC Mastercard® credit card product. Product
transfer may result in a change to your APRs and Fees and the loss of eligibility in the Rewards Program. Any
accumulated Rewards Program Points will be transferred to your new HSBC Mastercard® credit card Account, if the
HSBC Mastercard® credit card you choose has a Rewards Program.
•Close your Premier World, Premier World Elite or Advance Mastercard® credit card Account. If your Account is closed
you will not be able to use your Account for new transactions and you will forfeit all your Rewards Program Points as
of the date the Account is closed.
•Conditions for Annual Fee Reversals
•If you have not used your Account and you close your Account within 90 days of when the Annual Fee was assessed,
the Annual Fee will be refunded (if paid) or reversed.
•If the only balance on your Account is the Annual Fee and you do not pay the Annual Fee within 90 days from the
Payment Due Date on which the said Annual Fee was payable,the Annual Fee will be credited and your Account will
be closed.
•If you close your Account before the Payment Due Date on the billing statement on which the Annual Fee is assessed,
the Annual Fee will be refunded (if paid) or reversed. If your Account is closed, you must pay the balance according to
the terms of this Agreement.
•For Premier World and Advance Mastercard® Accounts if you are assessed an Annual Fee and have paid it in full and
subsequently hold a qualifying U.S. HSBC Advance or Premier (which includes Jade) checking account relationship,
the prorata portion of any paid Annual Fee will be refunded to you.
LATE PAYMENT FEE
For the HSBC Gold Mastercard, for each calendar year, the Late Payment Fee will be $0 for the first late payment, $28 for
the second late payment, and $39 for each subsequent late payment within that calendar year. For all other cards, the Late
Payment Fee is $28, except that the Late Payment Fee will increase to $39 for each subsequent late payment, and the Late
Payment Fee will reset to $28 after you make 6 consecutive on-time payments. This fee will not exceed the amount of your
Minimum Payment Due.
RETURNED PAYMENT FEE
It is charged each time a check or other form of payment to us is returned or not honored. The Returned Payment Fee will
not exceed the amount of your Minimum Payment Due.
COPY REQUEST FEE
A fee may be charged each time a copy of a document is requested. The fee amount will be disclosed at the time of your
request.

INTERNAL

FEES AND LIMITS
The fees that apply to your Account are shown in the purchase balance unless otherwise stated in this Agreement.
If charging any fee shown in Part 2 would exceed first-year fee limits set by law, we may charge an amount allowed by
law. If we do this, it does not affect our ability to charge the full fee amount later.

9. TRANSACTIONS MADEIN FOREIGN CURRENCIES
If you make a transaction in a foreign currency, the transaction will be converted by the Network, into a U.S. dollar amount
in accordance with its operating regulations or conversion procedures in effect at the time the transaction is processed. The
currency conversion rate in effect on the processing date may differ from the rate in effect on the transaction or posting
date. The Network may change the procedures, from time to time, at its own discretion.

10. YOUR BILLING RIGHTS
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What to Do If You Find a Mistake on Your Statement
If you think there is an error on your statement, write to us at:
HSBC Bank USA, N.A. PO Box 9, Buffalo, NY 14240 or at the address shown on your billing statement.
In your letter, give us the following information:
•Account information: Your name and account number.
•Dollar amount: The dollar amount of the suspected error.
•Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you
believe it is a mistake.
You must contact us:
•Within 60 days after the error appeared on your statement.
•At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you
think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any
potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
•Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have
already corrected the error.
•Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is
correct.
While we investigate whether or not there has been an error:
•We cannot try to collect the amount in question, or report you as delinquent on that amount.
•The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
•While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
•We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
•If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that
amount.
•If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest
and fees. We will send you a statement of the amount you owe and the date payment is due. We may then report you
as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still
refuse to pay. If you do so, we cannot report you as delinquent without also reporting that you are questioning your bill.

INTERNAL

We must tell you the name of anyone to whom we reported you as delinquent, and we must let those organizations know
when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even if your billis
correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in
good faith to correct the problem with the merchant, you may have the right not to pay the remaining amount due on the
purchase.
To use this right, all of the following must be true:
•The purchase must have been made in your home State or within 100 miles of your current mailing address, and the
purchase price must have been more than $50. (Note: Neither of these are necessary if your purchase was based on
an advertisement we mailed to you, or if we own the company that sold you the goods or services.)
•You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a
check that accesses your credit card account do not qualify.
•You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at:
HSBC Bank USA, N.A. PO Box 9, Buffalo, NY 14240
While we investigate, the same rules apply to the disputed amount as decision. After we finish our investigation, we will tell
you our decision. At that point, if we think you owe an amount and you do not pay, we may report you as delinquent.

11. CREDIT REPORTING
You agree that we may obtain and use credit information about you from others such as:
• merchants or stores;
• other lenders;
• consumer reporting agencies.
If you fail to meet the terms of this Agreement, we may send a negative report to consumer reporting agencies.
If you believe we have reported inaccurate information about your Account to any consumer reporting agency, you should:
• Notify us and ask us to correct the inaccurate information by writing to us at
HSBC Bank USA, N.A., PO Box 9, Buffalo, NY 14240.
When you write to us, please include:
• your Account number; and
• the specific information you believe is not correct; and why you believe it is not correct.

12. AUTHORIZED USERS
You may request to add one or more Authorized Users to your Account. If your request is granted, you are responsible for
all charges made by your Authorized Users.
HSBC Cash Rewards Mastercard® credit card Student Accounts do not qualify for Authorized Users.
To revoke another person’s permission to use your Account, you must:
•notify us; and
•retrieve and destroy any Cards, checks or other Account access devices from that person.
We may provide information about this Account to credit reporting agencies for both the Cardmembers and Authorized
Users, if any.

13. CHANGE OF TERMS
We may change this Agreement as allowed by applicable law. This may include changing, adding, or removing terms. We

INTERNAL

may do this in response to legal, business, competitive environment or other reasons not listed here.
We may increase the APR on existing balances in limited circumstances. Changes to some terms may require at least 45
days advance notice, and we will tell you in the notice if you have the right to reject a change. We cannot change certain
terms during the first year of your Account.

14. ACCOUNT CLOSURE AND DEFAULT
CARDMEMBER INITIATED ACCOUNT CLOSURE
You can close your Account at any time by:
•calling the number on the back of your Card; or
•mailing your request to the “Billing Inquiries” address noted on your billing statement.
Once you close the Account:
•you will no longer be able to make transactions.
•you must destroy your Card(s) and any unused credit card checks; and
•you will still be responsible for all amounts owed according to the terms of this Agreement.
•If you are enrolled in a Rewards Program, and you close your Account you will forfeit all your Rewards Program Points
earned as of the date the Account is closed.
HSBC INITIATED ACCOUNT CLOSURE
At any time, for any reason, HSBC may take any of these actions subject to applicable law:
•close your Account; and/or
•not renew your Card.
If HSBC closes your Account:
•you agree to destroy your Card(s) and any unused credit card checks.
•the terms of this Agreement still apply to Account balances until your Account is paid in full.
•you will not be able to use your Account for new transactions and you will forfeit all your Rewards Program Points as
of the date the Account is closed.
•we reserve the right to close your Account if it is inactive.
ACCOUNT DEFAULT
We may consider your Account to be in Default if you:
•fail to make the Minimum Payment Due when due;
•exceed your credit limit;
•become the subject of bankruptcy proceedings, foreclosure, repossession, lien or judgment, garnishment, or
attachment;
•give us misleading, false, or incomplete information;
•fail to give us a current physical address when you apply and whenever you move;
•make payments to us that are returned unpaid by your bank or other financial institution; or
•write any credit card checks that are returned unpaid by us;
•default under this or any other agreement or security agreement you have with us or one of our affiliates; and/or
become incompetent or deceased.
If we incur any costs to collect your balance owed, including any attorney fees, we may charge you for these costs as
permitted by applicable law, and we will apply your payments first to these costs.

15. MISCELLANEOUS
LOST OR STOLEN CARD/CHECKS
You agree to notify us immediately if:
•your Card or credit card checks are lost or stolen; or

INTERNAL

•your Account is used without your permission.
You may call at any time. The phone number is listed on your billing statement.
RECURRING BILL PAYMENTS
If you authorize any company to bill charges on a recurring basis to your Account, we may provide the company with
information about your:
•Account number;
•Account status; and
•Account expiration date.
You must notify the company when and if you no longer want to allow them to charge your Account. If you default with us
or if we change your Account or Account number for any reason:
•we may refuse or suspend future recurring charges; and you must set up the recurring charges again and/or make
other payment arrangements with the company.
UPDATING YOUR RECORDS
You agree:
•to give us prompt advance notice of any change in your name, mailing address, phone number, or employer;
•to promptly give us accurate financial information about you if we ask for it; and
•the Department of Motor Vehicles or similar agency may release may release your home address to us if we ever need
to locate you.
VOICE CALL/TEXT MESSAGING COMMUNICATIONS
By providing your phone number(s), you give affiliates, our service providers and us permission to contact you by voice call
or via text message (SMS); either using an autodialing system and/or using prerecorded voice. You do not need to agree
to receive these calls or texts in order to receive HSBC products or services. You may opt out of receiving autodialed or
prerecorded callsor texts.
MONITORING PRACTICES
You agree that we may listen to and record phone calls between you and our representatives.
ACCOUNT ASSIGNMENT
We may sell, assign or transfer all or any part of your Agreement and Account without notice to you. You may not sell,
assign or transfer your Account.
WAIVERS
If we delay or take no action allowed under this Agreement, for any reason, we will not lose or limit any of our rights under
this Agreement on any other occasion.
SEVERABILITY
If a term is found to be invalid under any applicable law, rule or regulation, then all other terms of this Agreement will
remain valid.
APPLICABLE LAWS
This Agreement is governed by Virginia law (without regard to its conflict of laws principles) and federal law.
We make our credit decisions and extend credit to you under this Agreement from Virginia. This Agreement is:
•entered into in Virginia; and maintained in Virginia.
This is true whether or not you use your Card in Virginia.

16. ARBITRATION
PLEASE READ THIS ARBITRATION PROVISION CAREFULLY. IF YOU DO NOT WANT DISPUTES TO BE RESOLVED
THROUGH ARBITRATION, YOU MUST FOLLOW THE INSTRUCTIONS FOR REJECTING ARBITRATION NOTED BELOW.
IF ARBITRATION IS CHOSEN BY ANY PARTY, NEITHER YOU NOR WE WILL HAVE THE RIGHT TO HAVE A CLAIM
HEARD IN COURT OR HAVE A JURY TRIAL ON THE CLAIM. IN ADDITION, YOU AND WE WILL NOT HAVE THE RIGHT

INTERNAL

TO PARTICIPATE IN A CLASS ACTION AS A REPRESENTATIVE OR MEMBER OF A CLASS. ARBITRATION PROCEDURES
ARE GENERALLY SIMPLER THAN THE RULES THAT APPLY IN COURT, AND DISCOVERY IS MORE LIMITED. THE
ARBITRATOR’S DECISIONS ARE AS ENFORCEABLE AS ANY COURT ORDER AND ARE SUBJECT TO VERY LIMITED
REVIEW BY A COURT. EXCEPT AS SET FORTH BELOW, THE ARBITRATOR’S DECISION WILL BE FINAL AND BINDING.
OTHER RIGHTS YOU OR WE WOULD HAVE IN COURT MAY ALSO NOT BE AVAILABLE IN ARBITRATION.
IF YOU ARE COVERED BY THE PROTECTIONS OF THE MILITARY LENDING ACT, THIS ARBITRATION PROVISION DOES
NOT APPLY TO YOU.
DEFINITIONS
In this Arbitration provision, “we”, “us” and “our” includes any corporate parents, successors, affiliates, assigns or
related persons or entities. This Arbitration provision may also be enforced by any party named as a co-defendant with
us in a Claim asserted by you. “Claim” means any past, current or future claim, dispute or controversy, whether known
or unknown, arising from or relating to your Account, your application for an account, this Agreement or the relationship
between you and us. If you have signed an Overdraft Protection Loan Agreement linking one or more checking accounts
to your Account to provide overdraft protection, “Claim” also includes any past, current or future claim, dispute or
controversy, whether known or unknown, arising from or relating to the Overdraft Protection Loan Agreement and related
linked checking account transactions. “Claims” include any Claims related to advertising, debt collection or credit reporting
and any Claim by or against any of our agents or any third parties. “Claims” include but are not limited to initial claims,
cross-claims, counterclaims and third-party claims. “Claims” include but are not limited to Claims based in tort, contract,
fraud, common law, equity, statutes and regulations of any kind.
CLAIMS SUBJECT TO ARBITRATION
Either you or we may require that any Claim be submitted to arbitration, except that: (1) only a court may decide any
dispute about the validity, enforceability or scope of this Arbitration provision; however, any dispute or controversy that
concerns the validity or enforceability of the Agreement as a whole is for the arbitrator to decide; and (2) Claim that you
or we file in a small claims court or your state’s equivalent court is not subject to arbitration as long as the Claim is an
individual Claim pending in that court.
You or we may demand to arbitrate any Claim at any time unless it has been filed in court and trial has begun or final
judgment has been entered. Either you or we may delay enforcing or not exercise rights under this Arbitration provision,
including the right to arbitrate a Claim, without waiving the right to exercise or enforce those rights.
LIMITATIONS ON ARBITRATION
CLAIMS MAY ONLY BE ARBITRATED ON AN INDIVIDUAL BASIS. CLAIMS MAY NOT BE ARBITRATED ON A CLASS
ACTION BASIS, ON A PRIVATE ATTORNEY GENERAL BASIS, ON A REPRESENTATIVE BASIS OR ON BEHALF OF THE
GENERAL PUBLIC.
THE ARBITRATOR’S AUTHORITY IS LIMITED TO CLAIMS BY OR AGAINST YOU AND US ALONE. CLAIMS MAY NOT
BE JOINED OR CONSOLIDATED UNLESS YOU AND WE AGREE IN WRITING. THE ARBITRATOR MAY NOT AWARD
INJUNCTIVE OR OTHER RELIEF THAT IS FOR THE BENEFIT OF THE GENERAL PUBLIC.
(SEE THE ‘CONTINUATION’ SECTION BELOW FOR SPECIAL PROCEDURES THAT APPLY TO A CLAIM SEEKING PUBLIC
INJUNCTIVE RELIEF).
HOW TO START AN ARBITRATION
To start an arbitration, contact the American Arbitration Association (“AAA”) (1-800-778-7879, adr.org). AAA will administer
the arbitration unless you and we agree in writing to use a different arbitration administrator or a different administrator is
appointed by a court.
ARBITRATION PROCEDURES
This Arbitration provision is governed by the Federal Arbitration Act, 9 U.S.C. §§ 1-16 (the “FAA”). Virginia law shall apply
to the extent state law is relevant under the FAA. The administrator’s rules that are in effect when a Claim is filed will apply
unless those rules conflict with this Arbitration provision. The arbitrator will apply applicable substantive law, consistent
with the FAA, statutes of limitations and privileges. The arbitrator will not apply any federal or state rules of civil procedure
or evidence. Subject to the Limitations on Arbitration section above, the arbitrator may award any relief available in court
on an individual claim consistent with the constitutional standards applicable in judicial proceedings. The arbitration will
be confidential, but you may notify any government authority of your claim. If your claim is for $10,000 or less, you may
choose whether the arbitration will be conducted solely based on documents, through a telephonic hearing or by an inperson hearing. At any party’s request, the arbitrator will offer a brief written explanation of the award. The arbitrator’s

INTERNAL

award will be final and binding, except for any right of appeal provided by the FAA; however, any party will have 30 days
to appeal the award by notifying the arbitration administrator and all parties in writing. The administrator will appoint a
three-arbitrator panel to decide anew, by majority vote based on written submissions, any aspect of the decision objected
to. Judgment upon any award may be entered in any court with jurisdiction. No arbitration award involving the parties will
have any preclusive effect as to issues or claims in any dispute involving anyone who is not a party to the arbitration, nor
will an arbitration award in prior disputes involving other parties have preclusive effect in an arbitration between the parties
to the Arbitration provision. An arbitration award and any judgment confirming it cannot be used in any case or arbitration
except to enforce the award. Arbitration hearings will take place by telephone or in the federal judicial district where you
live.
ARBITRATION FEES AND COSTS
You will be responsible for paying your share of any arbitration fees (including filing, administrative, arbitrator hearing or
other fees), but only up to the amount of the filing fees you would have incurred if you had brought a claim in court. We
will be responsible for any additional Arbitration fees. At your written request, we will consider in good faith making a
temporary advance of your share of any arbitration fees.
INSTRUCTIONS FOR REJECTING ARBITRATION
You may reject this Arbitration provision. To do so, you must send a written notice to us stating that you reject arbitration.
Your rejection notice must be signed by you and include your name, address and Account number. Your letter notifying us
that you reject this Arbitration provision must be postmarked within 60 days of the Account Opening Date. If you do not
know your Account Opening Date, please call the number listed on the back of your card to obtain the date.
You must mail your rejection notice to HSBC Bank, N.A. P.O. Box 9, Buffalo, NY 14240. This is the only way that
you can reject this Arbitration provision. If you reject this Arbitration provision, all other parts of the Agreement will
continue to apply. Rejecting this Arbitration provision has no effect on any other agreements.
CONTINUATION
This Arbitration provision will survive termination of your Account, voluntary payment of your Account balance, any legal
proceeding to collect a debt, any bankruptcy and any sale of your Account. If any portion of this Arbitration provision is
deemed invalid or unenforceable, the remaining portions of this Arbitration provision will still apply, except that:
(a) If a court determines that the “Limitations on Arbitration” section above is unenforceable with respect to a Claim that
does not seek public injunctive relief and all appeals from that ruling have been exhausted, then this Arbitration provision
(other than this sentence) will be null and void in its entirety; and
(b) If a court determines that the “Limitations on Arbitration” section above is unenforceable with respect to a Claim that
seeks public injunctive relief and all appeals from that ruling have been exhausted, then the Claim seeking public injunctive
relief will be determined in court and any individual claims seeking monetary relief will be arbitrated, in which case the
parties will ask the court to stay the claim seeking public injunctive relief until the arbitration award pertaining to individual
relief has been entered in court.

17. MILITARY LENDING ACT
Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions
of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent
may not exceed an annual percentage rate of 36 percent. This rate must include, as applicable to the credit transaction or
account: the costs associated with credit insurance premiums; fees for ancillary products sold in connection with the credit
transaction; any application fee charged (other than certain application fees for specified credit transactions or accounts);
and any participation fee charged (other than certain participation fees for a credit account). To hear this disclosure over the
phone, please call our toll-free number, 866.258.9078.

INTERNAL

06/2020

CARDMEMBER AGREEMENT – (PART 2 OF 2) – ACCOUNT OPENING TABLE
HSBC Advance Mastercard® credit card
Interest Rates and Interest Charges
Annual Percentage
Rate (“APR”) for Purchases

0% Introductory APR will apply for the first 12 months from Account opening.
After that, your APR will be 14.99% to 18.99% based on your credit worthiness. These APRs will
vary with the market based on the Prime Rate.

APR for Balance Transfers

0% Introductory APR will apply for the first 12 months from Account opening. Balance transfers must be
posted within the first 60 days following Account opening.

After that, your APR will be 14.99% to 18.99%, based on your credit worthiness. These APRs will
vary with the market based on the Prime Rate.
APR for Cash Advances

24.99%
This APR will vary with the market, based on the Prime Rate.

Penalty APR and
When it Applies

29.99%
This APR will vary with the market based on the Prime Rate.
This APR may be applied to your Account if you:
(1) Make a late payment; or,
(2) Make a payment that is returned.
How Long Will The Penalty APR Apply?: If your APRs are increased for either of the above reasons, the
Penalty APR may apply indefinitely.
Please refer to your Cardmember Agreement Part 1 of 2 for further details.

Paying Interest

We will not charge interest on new purchases if you pay your previous non-promotional balance, including
fees and finance charges, by the due date each month. We will charge interest on cash advances, balance
transfers and check transactions on the transaction date. See Section 7 of your Cardmember Agreement
for more details.

Minimum Interest Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying for or using a credit card,
visit the website of the Consumer Financial Protection Bureau at
http://www.consumerfinance.gov/learnmore.

Fees
Annual Fee

Transaction Fees
• Balance Transfer
• Check  

• Cash Advance
• Overdraft Transaction
Penalty Fees
• Late Payment
• Return Payment

$0
$0

Annual Fee during first year of Account opening
For HSBC Advance Mastercard® credit card Account customers who have a
qualifying U.S. HSBC Advance or Premier checking account relationship.
$45 For HSBC Advance Mastercard® credit card Account customers who no longer
have a qualifying U.S. HSBC Advance or Premier checking account relationship.
Either $10 or 4%, whichever is greater, will apply on each balance transfer.
Either $10 or 4%, whichever is greater, will apply on each check written for purposes other than a balance
transfer.
Either $10 or 5%, whichever is greater, will apply on each cash advance transaction.
Either $10 or 5%, whichever is greater, will apply on the overdraft amount.
Up to $39
Up to $39

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).” See your
Cardmember Agreement for more details.
Loss of Introductory APRs: We may end your Introductory APRs and apply the Penalty APR if you make a late payment that is more than 60
days late.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your Cardmember Agreement
Part 1 of 2.
All rates disclosed below are as of 06/01/2020.
Prime Rate: Variable APRs are based on the 3.25% Prime Rate as of 06/01/2020.
How We Calculate Your Variable Rates: Your APRs are equal to the U.S. Prime Rate plus the following Spreads: Purchase APR: 11.74%;
Balance Transfer APR: 11.74%; Cash Advance APR: 21.74%; Penalty APR: 26.74%.
Daily Periodic Rates (“DPR”) Used to Calculate Your Interest: Introductory Purchase DPR: 0%, Non-Introductory
Purchase DPR: 0.04107% - 0.05203%, Introductory Balance Transfer DPR: 0%, Non-Introductory Balance Transfer DPR: 0.04107% - 0.05203%,
Cash Advance DPR: 0.06847%, Penalty DPR: 0.08216%.
Premier (which includes Jade) and Advance Relationship Status: If your relationship with HSBC Bank USA, N.A. no longer meets the
requirements, we will assess the disclosed Annual Fee. If you do not want to pay the Annual Fee, please contact us to discuss other options.

1,2

HSBC Deposit Products are offered in the U.S. by HSBC Bank USA, N.A., Member FDIC.

ADVE 06/2020

